WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1215
North American Meat Institute Xavier Becerra, et al.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.
© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
The Humane Society of the United States, Animal Legal Defense Fund, Animal Equality, The Humane
League, Farm Sanctuary, Compassion In World Farming USA, Animal Outlook
Please check the appropriate box:
© lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

   

Signature: a
Aa
Date: 3/17/21

(Type or print) Name | Bruce A. Wagman

© mr. O Ms. O Mrs. O Miss
Firm RILEY SAFER HOLMES & CANCILA LLP
Address 456 Montgomery St. 16th Floor
City & State |San Francisco, CA Zip |94104
Phone (415) 275-8540 Email BWagman@rshc-law.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Paul J. Zidlicky, Counsel for Petitioners
cc: R. Matthew Wise, Counsel for Respondent Xavier Becerra; Karen Ross; Tomas Aragon
